LAW OFFICES

B ROW N , R EADDICK , B UM GARTNER ,
C ARTER , S TRICKLAND & W ATKINS , LLP
5 Glynn Avenue
Post Office Box 220
Brunswick, Georgia 31521-0220
G . Todd Carter
R ichard K . Strickland
Bradley J. W atkins
Paul M . Scott
Steven G . B lack erby
E ric L. Bum gartner
E m ily R . H ancock
Sean K . Scally
A m an da L . Szokoly

(9 12) 264-8 544
F ax - (9 12) 264-9 667

O f C ounsel:
J. Thom as W helchel
R etired:
R ich ard A . B row n, Jr.
Terry L. R eaddick
John E . B um gartner

February 20, 2020
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

By Electronic Filing and USPS

Amy Corbitt v. Michael Vickers
Number: 19-679

Dear Mr. Harris:
I am in receipt of the letter of Mr. Hughes opposing my request for a thirty (30) day extension to
file the Response to the Petition for Writ of Certiorari in this matter. While I appreciate his concerns,
respondent is not asking for anything more than the same consideration afforded to the petitioner in this
case. As the docket clearly reveals, petitioner sought, and was granted, extensions equaling fifty-nine (59)
days with regard to the filing of the Petition. Respondent seeks one additional day, but as required by
Supreme Court Rule 30.4, the reasons for that request are outlined in my prior correspondence. I note that
Mr. Hughes is also counsel in Zadeh v. Robinson, Case Number 19-676, and he received similar
consideration with regard to extensions in that matter.
Again, while I appreciate Mr. Hughes’ concerns, a shortened extension time suggested by him does
little to alleviate the requirement that I spend time preparing for the trials mentioned in my prior
correspondence. Accordingly, I respectfully reiterate my request for a thirty (30) day extension of time,
making the new deadline April 8, 2020.
Thank you for your consideration to this matter. As required, I have copied Mr. Hughes with this
correspondence.
Sincerely,
BROWN, READDICK, BUMGARTNER,
CARTER, STRICKLAND & WATKINS, LLP

/s/ Richard K. Strickland
Richard K. Strickland
RKS:lla
cc:
Paul Whitfield Hughes, Esquire

